IN THE SUPREME COURT OF ALABAMA

September 11, 2020

1190897
Ex parte Rodarius Grimes. PETITION FOR WRIT OF CERTIORARI TO THE COURT OF
CRIMINAL APPEALS (In re: Rodarius Grimes v. State of Alabama) (Jefferson Circuit Court:
CC-17-462.00; Criminal Appeals : CR-18-1079).

CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced cause has been
duly submitted and considered by the Supreme Court of Alabama and the judgment indicated
below was entered in this cause on September 11,2020:
Writ Denied. No Opinion. Bolin, J. - Parker, C.J., and Wise, Sellers, and Stewart, JJ.,
concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the foregoing is
a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record in said
Court.
Witness my hand this 11th day of September, 2020.

C\» t tlA
Clerk, Supreme Court of Alabama

COURT OF CRIMINAL APPEALS
STATE OF ALABAMA
D. Scott Mitchell
Clerk
Gerri Robinson
Assistant Clerk

P. O. Box 301555
Montgomery, AL 36130*1555
(334) 229-0751
Fax (334) 229-0521

July 24, 2020
CR-18-1079
Rodarius Grimes v. State of Alabama (Appeal from Jefferson Circuit Court: CC17-462.00)
NOTICE
You are hereby notified that on July 24, 2020, the following action was taken in the above
referenced cause by the Court of Criminal Appeals:
Application for Rehearing Overruled.

"D.

D. Scott Mitchell, Clerk
Court of Criminal Appeals
cc: Hon. Trade A. Todd, Circuit Judge
Hon. Jacqueline Anderson Smith, Circuit Clerk
Katherine Pritchett Bounds, Attorney
Alisha McKay, Attorney
Laura I. Cuthbert, Asst. Attorney General

s

APPENDIX D
REL: June 26, 2020
Notice: This unpublished memorandum should not be cited as precedent.
See Rule 54, Ala.R.App.P.
Rule 54(d),
states, in part, that this memorandum "shall have no precedential value and shall not be cited in arguments or
briefs and shall not be used by any court within this state, except for the purpose of establishing the application
of the doctrine of law of the case, res judicata, collateral estoppel, double jeopardy, or procedural bar."

Court of Criminal Appeals
State of Alabama
Heflin-Torbert Judicial Building
300 Dexter Avenue
Montgomery, Alabama 36104

D. Scott Mitchell
Clerk
Gerri Robinson
Assistant Clerk
(334) 229-0751
Fax (334) 229-0521

MARYB. WINDOM
Presiding Judge
J. ELIZABETH KELLUM
J. CHRIS McCOOL
J. WILLIAM COLE
RICHARD J. MINOR
Judges

MEMORANDUM

CR-18-1079

Jefferson Circuit Court CC-17-462

Rodarius Grimes v. State of Alabama
McCOOL, Judge.
Rodarius Grimes appeals his conviction for capital murder
and his resulting sentence of life imprisonment without the
possibility of parole. The murder was made capital because it
was "committed by or through the use of a deadly weapon while
§ 13A-5-40(a) (17), Ala. Code
the victim is in a vehicle."
1975.
Facts and Procedural History
The evidence presented at trial tended to establish the
following facts.
Grimes testified that, while driving his

truck in Birmingham on March 5, 2016, "a car cut in front of
[him], and [he] hit the back of it." (R. 1039.) Cortez Leman
Rhynes was driving the car that Grimes's truck hit, and Grimes
testified that, after the accident occurred, Rhynes "walked
over to [Grimes's] truck, screaming, saying [Grimes] hit his
fucking car" and that Rhynes "started beating on the window,
(R. 1041.)
Grimes also
saying 'Get the fuck out the car. I M
testified that Rhynes "reached in his right hip and he pulled
... a gun out, but he kept it down. He never lifted it up."
(R. 1042.)
According to Grimes, however, the confrontation
de-escalated once he agreed that, at a later date, he would
pay Rhynes $500 for the damage to Rhynes's car, and Grimes and
Rhynes exchanged telephone numbers instead of telephoning the
police because Grimes "had warrants for traffic tickets." (R.
1042 .)
The following day, Grimes and his son attended a church
service, and, after leaving the service, Grimes took his son
to Grimes's aunt's house. Grimes testified that, on the drive
to his aunt's house, he and Rhynes spoke on the telephone and
that he told Rhynes he had only $350 to give Rhynes at that
time, not the $500 to which they had agreed.
According to
Grimes, Rhynes "was saying that [Grimes was] playing with
[Rhynes's] money and people get killed by playing with
people['s] money." (R. 1049.) Grimes testified that, because
Rhynes had just threatened him and had brandished a gun after
the accident the previous day, he continued to his aunt's
house, where he retrieved a .40 caliber handgun he owned.
After retrieving the gun, Grimes drove to his grandmother's
house, and, according to Grimes, as he pulled his truck into
his grandmother's driveway, Rhynes arrived in his car and
parked his car against the curb in front of Grimes's
grandmother's house.
(R. 1052.)
Evidence established that
Rhynes' s car was parked just past the entrance to the driveway
such that the rear of the car was nearest the driveway and was
parked against the curb such that the passenger's side of the
car faced Grimes's grandmother's house -- i.e., faced in the
general direction of Grimes, who was in his truck in the
and the driver's side of the car faced the
driveway
street.1
(C . 736.)

1It was unclear how Rhynes knew he could find Grimes at
Grimes testified that he
Grimes's grandmother's house.
2

Grimes testified that he exited his truck after Rhynes
arrived and that he began "taking [his] money out" as he was
approaching the passenger's side of Rhynes's car.
(R. 1055.)
According to Grimes, however, Rhynes said "'Bro, I don't want
this shit'" and "reached up under his seat [with his right
hand (R. 1056)] and at the door handle [with his left hand (R.
1056)]."
(R. 1055.)
Grimes testified that he did not see
Rhynes in possession of a gun at that time (R. 1122) but that,
because Rhynes had brandished a gun at the scene of the car
accident the previous day, when he saw Rhynes reach under the
seat, he "dropped the money" (R. 1056) , "pulled [his] gun" (R.
1056), and "blanked out" and "started running, firing."
(R.
1057.) According to Grimes, as he was shooting he ran toward
the rear of Rhynes's car, i.e., in the direction of the
driveway, until he reached his truck parked in the driveway,
at which point he left the scene.
Grimes testified that he
never approached the driver's side of Rhynes's car (R. 1061)
and that he never saw Rhynes exit the car.
(R. 1109.)
Roxann Murry, a crime scene technician, responded to the
scene of the murder and observed Rhynes's body lying "on the
street near a vehicle with the driver door open."
(R. 808.)
Photographs of the murder scene demonstrate that Rhynes was
lying on his back underneath the driver's door, which was
open, with his feet very near or underneath the car and his
body extending away from the car into the street.
(C. 476,
478, 480, 482, 490, 492, 496.)
Murry testified that, once
Rhynes's body was moved,
she discovered "bullet hole
defect [s] " (R. 816) in the street where Rhynes's body had been
lying and that she also discovered such defects in the
passenger's cab of Rhynes's car.
Murry also testified that
she collected multiple bullet casings and bullet fragments
from the area near the passenger's side of the car, where
Grimes had been standing when he began shooting; from the area
near Rhynes's body on the driver's side of the car; and from
the passenger's cab of Rhynes's car
all of which, Murry
testified, were fired from a .40 caliber handgun. On crossexamination, Murry testified that she did not find any blood
in the passenger's cab of Rhynes' s car or any blood on the

"didn't give [Rhynes] no location to come" and that he
"guess[ed] [Rhynes] was riding around following [him]."
(R.
1095.)
3

bullet fragments collected from the passenger's cab of
Rhynes's car, at which point defense counsel asked Murry:
"Based on the lack of any blood inside of the car, can you say
from an evidentiary standpoint that this decedent was shot
inside the car? Does any evidence suggest that to you?"
(R.
889.) The State objected to defense counsel's question on the
ground that the question "call[ed] for a mental conclusion" on
"an issue for the jury to decide." (R. 889.) Defense counsel
argued, however, that Murry was "an evidence tech of 19 years"
who could "testify as to what the evidence speaks to from her
opinion," but the trial court sustained the State's objection.
(R. 890.)
Dr. Daniel Dye, the associate coroner for Jefferson
County, performed an autopsy of Rhynes's body and testified
that Rhynes had suffered 27 gunshot wounds. Specifically, Dr.
Dye testified that, in addition to other gunshot wounds,
Rhynes had been shot three times in the back and once in the
forehead.
According to Dr. Dye, two of the bullets that
entered Rhynes's back struck his right lung and the third
struck his spinal column, splintered, and then struck Rhynes's
aorta, left lung, and spleen. Dr. Dye testified that each of
the wounds to Rhynes's back would have been fatal but that
none of them would have been immediately fatal. Rather, Dr.
Dye testified, a person suffering such injuries would have had
"a matter of seconds, maybe a minute that [he] or she can
function" and continue to move. (R. 947.) On the other hand,
Dr. Dye testified that the gunshot wound to Rhynes's forehead
was "an instantly fatal wound." (R. 942.) Dr. Dye testified
that he could not determine in which order the fatal wounds
occurred but that "the injury to the head was not the first
gunshot wound" (R. 974) because
"after that wound is sustained, everything stops
working.
Your heart stops beating.
You've got no
more blood going through vessels.
"So if your heart's not beating, ... we wouldn't
have observed hemorrhage around the other wounds,
blood in the chest cavities from the shots that hit
in the back, things of that nature if the decedent
was deceased and then sustained multiple other
gunshot wounds."

4

(R. 973-74.) Dr. Dye also testified that Rhynes "most likely
was not in the driver's seat when he sustained" the gunshot
wound to his forehead (R. 976) because, according to Dr. Dye,
that wound "is instantly fatal. Your body is going to respond
to gravity, and you're going to fall wherever you are. If the
decedent sustained this wound when he was sitting in a seat,
(R. 976-77.)
he would have come to rest in the seat."
Regarding the gunshot wounds to Rhynes's back, Dr. Dye
in
different
testified
that
"the
bullets
are
going
directions," which, according to Dr. Dye, indicated that
"th[o]se three wounds were most likely sustained while the
decedent is trying to move in some direction."
(R. 982.)
Detective Jeff Steele of the Birmingham Police Department
responded to the scene of the shooting and spoke with Grimes's
mother, Latoya Grimes ("Latoya"), who, according to Det.
Steele, "stated that [Grimes] is the shooter and that he did
it because his wife[, Brionna Grimes ("Brionna"),] had been
having an affair." (R. 700.) At trial, Latoya testified that
she told Det. Steele at the scene of the murder that she
believed Grimes was involved in Rhynes's murder, but she
repeatedly denied telling Det. Steele that "this was about
[Rhynes] being in some kind of relationship with [Grimes's]
(R. 673.)
In addition, Latoya testified on crosswife."
examination that she had no knowledge of an extramarital
affair between Rhynes and Brionna and that she had "never seen
anything inappropriate between Brionna and Rhynes." (R. 681.)
Rather, Latoya testified that the single interaction she had
observed between Rhynes and Brionna occurred at Latoya's
house, where Grimes and Brionna were living at the time, when
Latoya saw Rhynes "outside [her] door fixing on [Brionna's]
car" approximately three or four months before Rhynes was
(R. 674.)
However, Latoya also testified as
murdered.
follows:
"Q.

And was there another time that you believed
that you saw [Rhynes] over at your house?

"A.

Well, a guy ran out the back door at three in
the morning when I got in, but I didn't get a
chance to see the face or anything.

5

"Q.

Okay.
But at that time, did you believe that
to be Rhynes?

"A.

I assumed, but not for sure."

(R. 675-76.) Latoya testified that she never informed Grimes
that Rhynes had come to her house to repair Brionna's car or
that she thought she saw Rhynes running from her house at 3:00
a.m. one morning.
(R. 687-88.) According to Latoya, she did
not inform Grimes of those events because she would "rather
not let him know these things to keep, you know, from
confusions."
(R. 688.)
Given Latoya's statements at the scene of the murder,
Det. Steele sought to speak with Grimes, who voluntarily
agreed to speak with Det. Steele. According to Det. Steele,
Grimes's statement regarding the circumstances giving rise to
Rhynes's murder was largely consistent with Grimes's testimony
Specifically, Det. Steele testified that Grimes
at trial.
admitted that he began shooting at Rhynes when Rhynes reached
In addition, Det.
underneath the driver's seat of the car.
Steele testified that he asked Grimes if Grimes had any
knowledge of an extramarital affair between Rhynes and
Brionna, but, according to Det. Steele, Grimes denied any such
knowledge (R. 735) and indicated that he had "no clue about
(R. 752.)
any involvement between [Rhynes and Brionna]."
Thus, Det. Steele testified, there was "no indication that
[Grimes] knew prior to [Rhynes's murder] about any sort of
relationship or affair" between Rhynes and Brionna.2
(R.
798.)
At the close of the State's case and again at the close
of evidence, Grimes moved for a judgment of acguittal, arguing
that the State had failed to prove a prima facie case of
capital murder because, he said, the State "failed to prove
that ... Rhynes was shot while inside of the vehicle."
(R.

2Brionna did not testify because she apparently invoked
the husband-wife privilege, which allows a person to refuse to
testify to confidential communications between spouses.
(R.
See Rule 504, Ala. R. Evid.
1252.)
6

1010.)
The trial court denied Grimes's motion and submitted
the case to the jury.
On November 3, 2017, the jury found
Grimes guilty of capital murder, and on February 20, 2018, the
trial court sentenced Grimes to life imprisonment without the
possibility of parole.3 Grimes did not file a timely notice
of appeal but petitioned the trial court for permission to
file an out-of-time appeal pursuant to Rule 32.1(f), Ala. R.
Crim. P.
The State did not object to Grimes's petition (C.
451) , and the trial court granted the petition on July 19,
2019. This appeal followed.
Analysis
On appeal, Grimes raises multiple claims that, he says,
require the reversal of his conviction. We address each claim
in turn.
I.
Grimes argues that the trial court erred by denying his
motion for a judgment of acquittal because, he says, the State
failed to present evidence sufficient to sustain his capitalmurder conviction for "murder committed by or through the use
of a deadly weapon while the victim is in a vehicle." § 13ASpecifically, Grimes argues that the State
5-40 (a) (17) .
failed to prove that Rhynes was in a vehicle when he was
murdered.
M f ft

In determining the sufficiency of the
evidence to sustain a conviction, a reviewing court
must accept as true all evidence introduced by the
State, accord the State all legitimate inferences
therefrom, and consider all evidence in a light most
favorable to the prosecution. VI V Ballenger v. State,
720 So. 2d 1033, 1034 (Ala. Crim. App. 1998),
quoting Faircloth v. State, 471 So. 2d 485, 488
(Ala. Crim. App. 1984), aff'd, 471 So. 2d 493 (Ala.
I II
The test used in determining the
1985).

3The State did not seek the death penalty; thus, the trial
court was required to impose a life-without-parole sentence
for Grimes's capital-murder conviction. See § 13A-5-45, Ala.
Code 1975.
7

sufficiency of evidence to sustain a conviction is
whether, viewing the evidence in the light most
favorable to the prosecution, a rational finder of
fact could have found the defendant guilty beyond a
reasonable doubt. VI I Nunn v. State, 697 So. 2d 497,
498 (Ala. Crim. App. 1997), guoting O'Neal v. State,
V f?
When
602 So. 2d 462, 464 (Ala. Crim. App. 1992) .
there is legal evidence from which the jury could,
by fair inference, find the defendant guilty, the
trial court should submit [the case] to the jury,
and, in such a case, this court will not disturb the
trial court's decision. VI I Farrior v. State, 728 So.
2d 691, 696 (Ala. Crim. App. 1998), quoting Ward v.
State, 557 So. 2d 848, 850 (Ala. Crim. App. 1990).
'The role of appellate courts is not to say what the
Our role ... is to judge whether the
facts are.
evidence is legally sufficient to allow submission
Bankston
of an issue for decision [by] the jury.
v. State, 358 So. 2d 1040, 1042 (Ala. 1978)."
Zann v. State, 17 So. 3d 1222, 1223 (Ala. Crim. App. 2009) .
In McMillan v. State, 139 So. 3d 184 (Ala. Crim. App.
2010), this Court addressed the same claim Grimes raises here,
i.e., whether there was sufficient evidence that the murder
victim was in a vehicle, in considering whether there was
sufficient evidence to sustain Calvin McMillan's capitalmurder conviction for killing James Bryan Martin in the
parking lot of a Wal-Mart discount store. In concluding that
there
was
sufficient
evidence
to
sustain
McMillan's
conviction, the Court stated:
"McMillan argues that the State failed to meet
its burden of proving that Martin was in the truck
when he was shot.
He argues that the State's
witnesses testified that they had heard the shots
when they saw Martin confronted by the perpetrator
while he was outside the truck.
Therefore, he
contends, the State failed to show that the victim
McMillan
was shot while he was inside the truck.
also argues as proof of the lack of evidence that no
casings or ballistic evidence was found in the
truck, and the medical examiner testified that all
the bullets exited the victim so that such evidence
8

should have been found in the truck,
blood was found in the truck.

Moreover, no

"However, although there was testimony that all
four shots occurred while the victim was outside the
truck, the State also presented evidence including
that the victim was inside the truck at the time of
the first shot. Rondarrell Williams testified that
when he began walking toward his girlfriend's
vehicle after leaving the Wal-Mart store, he heard
a gunshot.
He looked in the direction of the shot
and saw McMillan 'with his hand up raised like that
([i]ndicating) and a truck, a burgundy truck, with
the door open. ' He testified that he then heard two
more shots and saw McMillan pull the victim out of
the truck.
The DVD surveillance evidence of the
offense verifies Williams's testimony -- it displays
the brake lights of the truck turning on and going
off after the shooter appeared to fire his gun into
the truck.
It further shows that Martin was drug
out of the vehicle and collapsed on the pavement
where he was shot again.
"Thus, although the evidence was conflicting,
there was sufficient evidence presented by the State
to support the jury's verdict.
See McElyea v.
State, 892 So. 2d 993, 996 (Ala. Crim. App. 2004)
('Because
this
argument
concerns
an
apparent
conflict in the evidence, it relates to the weight
of the evidence, rather than to the sufficiency of
the evidence.'). Compare Ex parte Jackson, 614 So.
2d 405, 406 (Ala. 1993) (holding that because it was
undisputed that the victim was not, 'at any relevant
time, the occupant of a motor vehicle' the capital
offense pursuant to § 13A-5-40(a) (17), Ala. Code
1975, was not proven, although Jackson had intended
to shoot the occupant of the vehicle).
VI V VI T

The
weight
of
the
evidence, the credibility of the
witnesses, and inferences to be
drawn from the evidence, where
susceptible of more than one
rational conclusion, are for the
9

jury alone.
Willcutt v. State,
284
Ala. 547,
226 So. 2d 328
(1969).
Walker v.
State, 416
So. 2d 1083, 1089 (Ala. Cr. App.
1982) .
It was
within the
province of the jury to give the
evidence in the case whatever
weight and emphasis they thought
proper
in
reaching
their
Linson v. State, 394
verdict.
So. 2d 85, 92 (Ala. Cr. App.
1981) .
'Where, as in this case,
is
conflicting evidence
there
presented by the prosecution and
the defense, it is for the jury
to
resolve the
conflict and
determine the defendant's guilt
In making its
or innocence. .
determination,
the
may
0 ury
believe or disbelieve all or any
part of the testimony presented
Terry v. State,
by either side.
424 So. 2d 652, 655 (Ala. Cr.
App. 1982).
IV I IT T

Conflicting
evidence
always presents a question for
the jury unless the evidence
fails to establish a prima facie
case. Starling v. State, 398 So.
2d 337 (Ala. Cr. App.), cert,
denied, Ex parte Starling, 398
So. 2d 342 (Ala. 1981) . ' Gardner
v. State, 440 So. 2d 1136, 1137
(Ala. Cr. App. 1983)."
II I

Mosley v. State, 461 So. 2d 34, 36 (Ala.
Crim. App. 1984).'
"Dotch v. State, 67 So. 3d 936, 964 (Ala. Crim. App.
2010) .
IT I

Providing the State presents a prima facie
case, any inconsistencies and discrepancies in the
10

evidence go to the credibility of the witnesses and
Such
present
a
question
for
the
jury,
inconsistencies affect the weight rather than the
sufficiency of the evidence.'
Macon v. State, 652
So. 2d 331, 334 (Ala. Crim. App. 1994), cert,
denied,
652 So. 2d 334
(Ala. 1994)
(citationomitted) .
"Viewing the evidence in the light most
favorable to the State as we are required to do, we
conclude that the evidence was sufficient to support
Further, the weight to be
the jury's finding,
accorded the evidence was properly determined by the
jury."
McMillan, 139 So. 3d at 262-63 (emphasis added; citations to
record and footnote omitted).
On appeal, Grimes acknowledges McMillan but argues that
It was
McMillan is not controlling here,
We disagree.
undisputed that Grimes began shooting at Rhynes while Rhynes
was still inside his car; indeed, Grimes testified to that
fact himself. Grimes argues, however, that there was evidence
indicating that Rhynes was shot after he exited the car.
Specifically, Grimes notes that there were bullet casings and
bullet fragments underneath or near Grimes's body, which was
in the street, and "bullet hole defect [s]" in the street
underneath Grimes's body.
However, as was the case in
McMillan, the fact that Rhynes might have been shot after he
exited the car did not preclude a finding that Rhynes had also
been shot before he exited the car, and, as noted, Grimes's
own statements to Det. Steele provided a basis for finding
"that [Rhynes] was inside the [car] at the time of the first
shot[s]." McMillan, 139 So. 3d at 262.
Nevertheless, Grimes argues that, although he began
shooting at Rhynes while Rhynes was still inside his car,
there was no evidence indicating that Rhynes was "actually hit
... in the split second it took Rhynes to exit his vehicle."
(Grimes's brief, at 25.) Construing the evidence in a light
most favorable to the State and affording the State all
legitimate inferences therefrom, Zann, supra, we disagree. As
Grimes notes, Dr. Dye testified that the head wound Rhynes
suffered was immediately fatal and that, as a result, once
11

Rhynes suffered that wound, his body would have "respond[ed]
to gravity" and would have "fall[en] wherever [Grimes was]."
Thus, the fact that Rhynes's body came to rest in the street
immediately next to the car and underneath the open driver's
door supports a finding that Rhynes suffered the head wound as
he was exiting the car or immediately upon exiting the car.
■That fact is significant because Dr. Dye also testified that
. the head wound had to have occurred after the wounds to
Rhynes's back occurred. Thus, if Rhynes's head wound occurred
. as he was exiting the car or immediately upon exiting the car,
■ as the evidence indicates it did, then the evidence supports
a finding that Rhynes was shot in the back while he was inside
the car.
That finding is strengthened by the fact that Dr.
Dye testified that the wounds to Rhynes's back most likely
occurred while Rhynes was "trying to move in some direction,"
which, because Grimes was shooting at Rhynes from the
passenger's side of the car while Rhynes was reaching for the
door handle, is consistent with Rhynes being shot in the back
during the "split second it took Rhynes to exit his vehicle."
Although Grimes notes that there was no blood found inside
Rhynes's car or on the bullet fragments collected from inside
the car, that fact was not fatal to the State's prima facie
case. Rather, the undisputed fact that Grimes began shooting
at Rhynes while Rhynes was inside his car and the lack of
blood inside the car constituted conflicting evidence that
created a question of fact for the jury. Put differently, the
lack of blood in Rhynes's car went, as it did in McMillan, to
the weight of the State's evidence, not its sufficiency.
Given our holding in McMillan and the principle of law
requiring us to accept as true all the State's evidence,
accord the State all legitimate inferences therefrom, and
consider the evidence in a light most favorable to the State,
Zann, supra, we conclude that the State presented sufficient
evidence to sustain Grimes's capital-murder conviction based
on a killing that occurred while the victim was in a vehicle.
Accordingly, this claim does not entitle Grimes to relief.
II.
Grimes argues that the trial court erred by admitting
"Alabama
certain aspects of various witnesses' testimony,
courts have often stated that a trial court has substantial
discretion in determining whether evidence is admissible and
12

that a trial court's decision will not be reversed unless its
determination constitutes a clear abuse of discretion." Hosch
v. State, 155 So. 3d 1048, 1081 (Ala. Crim. App. 2013) .
A.
Grimes argues that the trial court erred by allowing the
On
State to elicit certain aspects of Latoya's testimony,
direct examination, Latoya testified as follows:
"Q.

Okay. And when you were at the scene, did you
talk to the police?

"A.

Yes, sir.

"Q.

And did you
involved?

"A.

I told them what I heard,
No.
call.

"Q.

Okay.
But did you tell the officers that you
believed your son was involved?

"A.

Yes.

tell

them who

you

thought

was

that I got a

"[DEFENSE COUNSEL]: Your Honor, I'm
going to object if she doesn't have any
personal knowledge and she's deriving -her testimony from hearsay is improper.
"THE COURT: Well, the question was,
So to that
did she tell the police,
objection, overruled.
"Q.

Did you tell the police that you thought your
son was involved?

"A.

I didn't say I thought,
heard his name, yes, sir.

"Q.

Okay.

And did you tell
13

I told them I just

[Det.

Steele]

at the

scene that you felt this was about your son's
wife?
"A.

No, sir.
"[DEFENSE COUNSEL]: Judge, I'm going
to object again. She was not -"THE COURT: Wait just a minute, ma'am.
"[DEFENSE
COUNSEL]:
She
was
not
present at the scene. She would have no -no indication as to what it was about. It
would have come from hearsay.
"THE COURT: Overruled.

"Q.

Did you tell Det. Steele that you that this was
about your son's wife?

"A.

I don't recall.

"Q.

And at the Birmingham headguarters,
speak with Det. Steele?

"A.

Yes, sir.

"Q.

And in your conversation with Det. Steele, did
you tell him that this was about the victim
being in some kind of a relationship with your
son's wife?

"A.

No, sir.

"Q.

You deny that you told him that?

"A.

I don't recall telling him that I think it's
over
about the wife, no.

"Q.

Okay.

"A.

I don't recall.
14

did you

"Q.

And so it's your testimony today that this had
nothing to do with your son's wife?

"A.

I mean, it probably started out like that, but
it did not end like that. No, sir.

"Q.

And when you say,
It started out like that,
why would you say that?

"A.

I guess just by him seeing them, I mean, but it
did not end like that.

"Q.

Do you remember in your conversations with Det.
Steele that you told Det. Steele
did you
ever tell Det. Steele that [Rhynes and Brionna]
were having a relationship?

"A.

No, sir.

"Q.

You never told him that?

"A.

No, sir.

"Q.

Okay.
that?

"A.

Because I don't recall telling him
Yes, sir.
that at all.

"Q.

Okay. And did you ever tell him that they were
having an affair?

"A.

No, sir.

And so you deny that you ever told him

I don't recall."

(R. 670-78.)
Grimes argues that the trial court erred by allowing the
State to elicit Latoya's testimony that she told Det. Steele
at the scene of the murder that Grimes was involved in the
shooting because, Grimes says, Latoya's out-of-court statement
constituted inadmissible hearsay. However, Grimes failed to
preserve this claim for appellate review because defense
15

counsel did not raise an objection until after Latoya answered
the allegedly improper question and did not move to exclude or
strike Latoya's answer. See McCray v. State, 88 So. 3d 1, 67
(Ala. Crim. App. 2010) ("An objection to a question, made
after an answer is given, is not timely and will not preserve
the issue for review." (citation omitted)); and Woodward v.
State, 123 So. 3d 989, 1022-23 (Ala. Crim. App. 2011) ("The
general rule is, that, after a question is asked, and a
responsive answer given, an objection comes too late, and the
trial court will not be put in error in the absence of a
motion to exclude or strike, and also an adverse ruling on the
motion." (citation omitted)).
Moreover, it is well settled that
"[n]o judgment may be reversed or set aside ...
on the ground of ... the improper admission or
rejection of evidence ... unless in the opinion of
the court to which the appeal is taken or
application is made, after an examination of the
entire cause, it should appear that the error
complained of has probably injuriously affected
substantial rights of the parties."
"The standard for determining
Rule 45, Ala. R. App. P.
whether error is prejudicial or harmless is whether the
evidence in error was harmless beyond a reasonable doubt. I 11
Pierce v. State, 217 So. 3d 64, 67 (Ala. Crim. App. 2016).
Here, even if it was error to admit Latoya's out-of-court
statement that Grimes was involved in the shooting, there was
no dispute at trial as to whether Grimes was involved in the
shooting. Indeed, as we have already noted, Grimes testified
to that fact himself. Thus, we conclude beyond a reasonable
doubt that any error in the admission of Latoya's out-of-court
statement to Det. Steele that Grimes was involved in the
shooting was harmless and therefore does not entitle Grimes to
relief. See Whatley v. State, 146 So. 3d 437, 464 (Ala. Crim.
App. 2010) ("The admission of cumulative evidence constitutes
harmless error.").
Grimes also argues that the trial court erred by allowing
the State to elicit inadmissible hearsay from Latoya because,
Grimes says, the State elicited testimony from Latoya
16

regarding "what [she] said out of court to Det. Steele for the
purpose of proving that Rhynes and [Brionna] were in fact
having an affair, which created a motive for Grimes to kill
Rhynes." (Grimes's brief, at 31.) Initially, we note that it
appears Grimes also failed to preserve this claim for
appellate review because defense counsel's objection does not
appear in the transcript until after Latoya answered the
allegedly improper question and because defense counsel did
not move to exclude or strike Latoya's answer. McCray, supra;
Woodward, supra.
However, it also appears from the trial
court's instruction to Latoya to "[w]ait just a minute" that
defense counsel might have objected before Latoya answered the
question but that Latoya answered the question without
awaiting a ruling from the trial court.
Regardless, as
evidenced by that part of Latoya's testimony quoted above,
although the State attempted to elicit testimony from Latoya
that she told Det. Steele the murder occurred because of an
extramarital affair between Rhynes and Brionna, Latoya
repeatedly either denied making such a statement or testified
that she did not recall making such a statement.
Thus,
because the State did not elicit an out-of-court statement
from Latoya regarding the alleged affair, this claim, even if
preserved for appellate review, does not entitle Grimes to
relief.
B.
In a related claim, Grimes argues that the trial court
erred by allowing Det. Steele to testify that Latoya told him
at the scene of the murder and at the Birmingham Police
Department later that day "that [Grimes] [was] the shooter and
that he did it because [Brionna] had been having an affair."
Once again, Grimes argues that Latoya's out-of(R. 700.)
court statement to Det. Steele should have been excluded as
inadmissible hearsay.
As to Latoya's out-of-court statement to Det. Steele that
Grimes was the person who shot Rhynes, we have already
concluded in Part II.A, supra, that any error in the admission
of such testimony was harmless because Grimes himself
testified that he was the person who shot Rhynes.
As to
Latoya's out-of-court statement to Det. Steele that Grimes
shot Rhynes because Rhynes and Brionna were having an
extramarital affair, the State argued at trial that it was
17

offering Det. Steele's testimony to impeach Latoya's testimony
that she had not made that statement. Thus, the State argued,
Det. Steele's testimony was admissible under Rule 613(b), Ala.
R. Evid., which provides:
"Extrinsic
evidence
of
a
prior
inconsistent
statement by a witness is not admissible unless the
witness has been confronted with the circumstances
of the statement with sufficient particularity to
enable the witness to identify the statement and is
afforded an opportunity to admit or to deny having
made it."
In Brown v. State, 74 So. 3d 984 (Ala. Crim. App. 2010),
this Court addressed the admissibility, under Rule 613(b), of
extrinsic evidence
of a witness's
prior
inconsistent
statement. In that case, Wakilii Brown was convicted of three
counts of capital murder for the killing of two women.
At
trial, the State called Betty Washington, Brown's aunt, as a
witness and asked Washington if Brown had told her that he
"had done something bad, very bad." Brown, 74 So. 3d at 997.
Washington, however, denied that Brown had made such a
statement to her, and the State did not question Washington
further.
After Washington testified, the State called
Investigator Jeff Mobbs as a witness and elicited testimony
from Mobbs that Washington "had told him that 'she had been
told by [Brown] that he had done something wrong to them girls
up there, he had hurt them girls, and that we needed to go in
that house and check and see what's going on. I 11 Id. at 998.
On appeal, Brown argued that the trial court erred by allowing
Inv. Mobbs to testify regarding Washington's out-of-court
statement because, Brown said, the State failed to lay a
proper foundation for the admission of Inv. Mobbs's testimony
under Rule 613(b). In concluding that Inv. Mobbs's testimony
was not admissible, this Court stated:
"During its cross-examination of Washington, the
State asked Washington if Brown had told her he had
done something very bad, and Washington said he had
not.
The State did not ask Washington any more
questions.
At no time did the State confront
Washington with the statement she had made to Mobbs
or give Washington an opportunity to admit or deny
having made the statement.
Therefore, the trial
18

court erroneously allowed the State to present
extrinsic evidence about Washington's statement to
Mobbs. See Rule 613(b), Ala. R. Evid."
Id. at 1002 (emphasis added).
In
Brown, however, is distinguishable from this case.
Brown, the State never confronted Washington with the out-ofcourt statement she made to Inv. Dobbs and therefore failed to
lay the predicate required by Rule 613 for the admission of
Inv. Dobbs's testimony regarding that statement. Here, on the
other hand, as evidenced by that part of Latoya's testimony
quoted in Part II.A, supra, Latoya testified that she did not
believe Rhynes's murder occurred because of an alleged
extramarital affair between Rhynes and Brionna, and when the
State asked Latoya eight separate times if she told Det.
Steele either at the scene of the murder or at the Birmingham
Police Department later that day that the murder did occur
because of the alleged affair, Latoya denied making such a
statement. Thus, unlike the circumstances in Brown, the State
confronted Latoya with her out-of-court statement to Det.
Steele that was inconsistent with her testimony at trial and
gave her an opportunity to admit the statement, which she
refused to do.
Grimes argues, however, that Det. Steele's testimony was
nevertheless inadmissible under Rule 613(b) because, Grimes
says,
"the State never confronted [Latoya] during her
testimony with the specific content of the statement that it
alleged she had made." (Grimes's brief, at 35-36.) However,
Rule 613(b) does not require that the witness to be impeached
be confronted with the "specific content" of her prior
statement, only that the witness be confronted with "the
circumstances of the statement with sufficient particularity
to enable the witness to identify the statement." Rule 613(b)
(emphasis added).
Here, the State asked Latoya if she told
Det. Steele either at the scene of the murder or at the
Birmingham Police Department later that day that Grimes shot
Rhynes because Rhynes and Brionna "were having an affair" and,
in doing so, provided Latoya with sufficiently particular
circumstances of her out-of-court statement to enable her to
identify the statement; that is all Rule 613(b) requires.
In short,

Latoya testified at trial that she did not
19

believe Rhynes's murder occurred because of an alleged
extramarital affair between Rhynes and Brionna, and the State
confronted Latoya with the circumstances of her out-of-court
statement to Det. Steele that was inconsistent with that
testimony and did so with sufficient particularity to enable
Latoya to identify the statement. The State also gave Latoya
an opportunity to admit making the out-of-court statement,
which she refused to do multiple times. Thus, Det. Steele's
testimony regarding Latoya's out-of-court statement was
admissible under Rule 613(b) to impeach Latoya's testimony
that she had not made the statement. Accordingly, we find no
abuse of discretion in the trial court's admission of such
testimony.4 Hosch, supra.
C.
Grimes argues that the trial court erred by allowing the
State to elicit testimony from Latoya regarding the paternity
of Brionna's youngest child,
Specifically, the State
questioned Latoya as follows:
"Q.

How many children does [Grimes] have?

"A.

He has three.

"Q.

And what are their names?

"A.

Rodarius, Jr., Angel, and Sodarius (phonetic).

4Grimes notes that "the jury was never instructed that it
should consider [Det. Steele's] testimony for impeachment
purposes" (Grimes's brief, at 35 n.3), but there is nothing in
the record indicating that Grimes
requested such an
instruction; thus, Grimes failed to preserve for appellate
review any claim that the trial court should have instructed
the jury that Det. Steele's testimony regarding Latoya's outof-court statement could be used as impeachment evidence only.
See Shouldis v. State, 953 So. 2d 1275, 1282 (Ala. Crim. App.
2006)
("The record does not contain any request for a
unanimity instruction. Thus, to the extent that Shouldis also
challenges the failure to give a unanimity instruction,
because he did not request such an instruction, that claim was
not preserved for appellate review.").
20

"Q.

Okay. Does your son not have another child by
the name of ... Rhyne?

"A.

I'm not for sure if it's my grandson.

"Q.

And then if it's not your grandson, do
Okay.
you know who[se] it is?
"[DEFENSE
object.

"A.

COUNSEL]:

. "A.

I'm going to

No, sir. I don't have no idea.
"THE COURT: Wait
objection is overruled.

"Q.

Judge,

I'm sorry.

a

minute,

The

You have no idea?

No.

"Q.

And do you know of Rhyne?

"A.

Yes, sir.

"Q.

Okay.

"A.

Brionna.

And who is the mother of Rhyne?

"[DEFENSE COUNSEL]:
to object to relevance.

Judge,

I'm going

"THE COURT: Overruled.
"Q.

I'm sorry.

Who is the mother of Rhyne?

"A.

Brionna Grooms.

?? 5

(R. 679-80.)
On appeal, Grimes contends that the State elicited that

5At trial, Brionna was identified as both Brionna Gropms
and Brionna Grimes.
21

part of Latoya's testimony "to suggest that Rhynes was the
father of [Rhyne]" (hereinafter referred to as "the child") in
an effort to establish the State's theory of the case, i.e.,
that Grimes murdered Rhynes because Rhynes and Brionna were
having an extramarital affair.6
(Grimes's brief, at 39.)
According to Grimes,
however,
testimony regarding the
paternity of the child was irrelevant and therefore should
have been excluded pursuant to Rule 402, Ala. R. Evid., which
provides that "[e]vidence which is not relevant is not
admissible."
As a threshold matter, we note that Grimes failed to
preserve this claim for appellate review. As evidenced by the
testimony quoted above, defense counsel raised two objections
during that part of Latoya's testimony,
However, as to the
first objection, defense counsel merely stated: "Judge, I'm
going to object." It is well settled that
"[a]n appellant must provide specific grounds for
his general objections at trial if he intends to
appeal that issue,
A general objection that does
not specify grounds preserves nothing for review.'
Landreth v. State, 600 So. 2d 440, 447 (Ala. Cr.
App. 1992), Thompson v. State, 575 So. 2d 1238 (Ala.
Cr. App. 1991) .
A defendant is bound on appeal of
a criminal prosecution by the grounds stated for the
objection at trial,' Lyde v. State, 605 So. 2d 1255,
1258 (Ala. Cr. App. 1992) .
Thus, 'an objection.
without specifying a single ground is not sufficient
to place the trial court in error for overruling
such objection.
Reeves v. State, 456 So. 2d 1156,
1160 (Ala. Cr. App. 1984)."
Capps v. State, 630 So. 2d 486, 489-90 (Ala. Crim. App. 1993).
See also Ex parte Parks, 923 So. 2d 330, 333 (Ala. 2005)
n i n
An objection without specifying a single ground, such as
(
'I object,'
objection,' or 'we object' is not sufficient to
trial
court
in
error
for
overruling the
place
the
fI V VI
objection.
(quoting Lawrence v. State, 409 So. 2d 987, 989
(Ala. Crim. App. 1982) (citation omitted))).
Thus, because

6Latoya testified that, at the time of trial in October
2017, the child was approximately 11 months of age.
22

defense counsel provided no grounds for his first objection,
Grimes failed to preserve a challenge to the trial court's
adverse ruling on that objection. As to the second objection,
defense counsel did not object until after Latoya answered the
allegedly improper question and did not move to exclude or
strike Latoya's answer. Thus, Grimes also failed to preserve
a challenge to the trial court's adverse ruling on that
objection. McCray, supra; Woodward, supra.7
Regardless, we conclude that this claim does not entitle
As Grimes notes, the State elicited that
Grimes to relief.
part of Latoya's testimony quoted above in an attempt to prove
that Rhynes and Brionna had engaged in or were engaged in an
extramarital affair and that the affair provided Grimes with
It is well settled that evidence
a motive to murder Rhynes,
of motive is always admissible in a criminal trial, E.L.Y. v.
State, 266 So. 3d 1125, 1137 (Ala. Crim. App. 2018), and
evidence of an extramarital affair between a defendant's
spouse and the defendant's victim certainly provides the
defendant with a motive to murder the victim if the defendant
is aware of the affair. See Saxer v. State, 115 S.W.3d 765,
Crim. App.
(Tex.
2003)
("[EJvidence of a wife's
776
extramarital relationship is admissible to show motive to kill
only if it is also established that the husband-defendant knew
of the relationship.").
Thus, if Grimes was aware, before
Rhynes was murdered, of an extramarital affair between Rhynes
and Brionna, then evidence of the affair was admissible as
relevant evidence of Grimes's motive to murder Rhynes.
E.L.Y., supra.

7We recognize that Grimes filed a pretrial motion in
limine seeking to exclude any evidence of an extramarital
affair between Rhynes and Brionna. However, because the trial
court's ruling on Grimes's motion in limine was not absolute
or unconditional, the ruling did not relieve Grimes of the
burden of properly objecting to evidence of the alleged affair
when such evidence was proffered at trial. Baney v. State, 42
So. 3d 170, 175 (Ala. Crim. App. 2009). Furthermore, we note
that the sole ground Grimes asserted in support of his motion
in limine was that "the only evidence that there may be [an
affair] would be hearsay" (R. 301), which is not the ground
Grimes asserts on appeal.
23

Here, Latoya testified that she did not inform Grimes of
her suspicion of the alleged extramarital affair between
Rhynes and Brionna -- testimony that Grimes corroborated (R.
and Det. Steele testified that he asked Grimes if
1038)
Grimes was aware Rhynes "had been involved with" Brionna and
that Grimes denied any such knowledge. (R. 735.) Thus, there
was certainly evidence from which the jury could have found
that Grimes was not aware of the alleged affair.
However,
there was also evidence from which the jury could have found
that Grimes was aware of the alleged affair.
After asking
Latoya if she believed Rhynes's murder "had [any]thing to do
with [Grimes's] wife," Latoya testified that "it probably
started out like that." The State then asked Latoya what she
meant by that statement, and Latoya testified: "I guess just
Taken in context, the reasonable
by him seeing them."
inference from Latoya's testimony is that Grimes had seen
Rhynes and Brionna together and was aware of the alleged
affair before Rhynes was murdered. See Horace v. Waters, 615
So. 2d 74, 75 (Ala. 1993) (noting that a jury "is authorized
to draw all reasonable inferences from the evidence"). Thus,
because there was evidence from which the jury could have
found that Grimes was aware of the alleged affair, evidence of
the alleged affair was relevant evidence of Grimes's motive to
murder Rhynes, E.L.Y., supra, and Latoya's testimony regarding
the child provided circumstantial evidence of the alleged
affair.
See Chambers v. State, 181 So. 3d 429, 434 (Ala.
("Circumstantial evidence is in nowise
Crim. App. 2015)
considered inferior evidence and is entitled to the same
weight as direct evidence provided it points to the guilt of
Accordingly, even if
the accused." (citations, omitted)).
Grimes preserved this claim for appellate review, we find no
abuse of discretion in the trial court's admission of Latoya's
testimony regarding the child. 8 Hosch, supra.
Ill.
Grimes argues that the trial court erred by preventing
Murry, the evidence technician, from testifying whether, in

8

As noted, there was also evidence indicating that Grimes
However, the issue
was not aware of the alleged affair,
before us is the admissibility of evidence of the alleged
affair, not the weight of the evidence.
24

her opinion, the lack of blood inside Rhynes's car indicated
In
that Rhynes had not been shot while inside his car.
support of that claim, Grimes contends that Murry's opinion
was admissible as a lay-witness opinion under Rule 701, Ala.
R. Evid., which provides that a lay witness may testify to
"opinions or inferences which are (a) rationally based on the
perception of the witness and (b) helpful to a clear
understanding of the witness's testimony or the determination
of a fact in issue."
However, Rule 704, Ala. R. Evid., provides: "Testimony in
the form of an opinion or inference otherwise admissible is to
be excluded if it embraces an ultimate issue to be decided by
the trier of fact." 11 f An ultimate issue has been defined as
the last question that must be determined by the jury.
See
Tims v.
Black's Law Dictionary [1522 (6th ed. 1990) ] .
State, 711 So. 2d 1118, 1125 (Ala. Crim. App. 1997)." Whatley
v. State, 146 So. 3d 437, 464 (Ala. Crim. App. 2010). Thus,
in a capital-murder trial where the State is required to
prove, as it was here, that the murder was committed "by or
through the use of a deadly weapon while the victim is in a
vehicle," § 13A-5-40(a) (17), the ultimate issues are whether
the murder was accomplished with a deadly weapon and whether
See Knight v. State, [Ms.
the victim was inside a vehicle.
(Ala. Crim. App.
CR-16-0182, August 10, 2018]
So. 3d
2018) (holding, in a case where the defendant was convicted of
murder through the use of a deadly weapon while the victim was
in a vehicle, that "the ultimate issues were ... whether the
killing . . . was accomplished through the use of a deadly
In fact, Grimes
weapon while Daffin was in a vehicle") .
concedes as much in his initial brief on appeal. See Grimes's
brief, at 52-53 ("Whether or not Rhynes was shot inside of his
vehicle was a central issue at trial. The State was required
to prove that Rhynes was shot while still inside of his
vehicle to obtain a guilty verdict for capital murder."
Therefore, because Murry's
(internal citation omitted)).
opinion as to whether Rhynes had been shot while inside his
car would have embraced an ultimate issue in the trial, the
trial court properly excluded such testimony under Rule 704.
Accordingly, this claim does not entitle Grimes to relief.9

9In his reply brief, Grimes contends that Murry's opinion
as to whether Rhynes had been shot while inside his car would
25

IV.
'Grimes argues that the trial court erred by allowing the
State to introduce evidence of prior collateral charges
against Grimes in violation of Rule 404(b), Ala. R. Evid.,
which provides, in pertinent part: "Evidence of other crimes,
wrongs, or acts is not admissible to prove the character of a
person in order to show action in conformity therewith."
On direct examination, defense counsel questioned Grimes
as follows:
"Q.

Now, ... when you were driving around after you
left church did you have a gun on you that day?

"A.

NO.

"Q.

Do you typically carry a gun?

"A.

No.

"Q.

Did you get a gun after
conversation with [Rhynes]?

"A.

Yes.

"Q.

And why did you get a gun at that time?

"A.

Because I was afraid and he made the threat
saying that people get killed by playing with
people['s] money. And the day before he had a

having

i*

that

V

«;

not have embraced an ultimate issue because, Grimes says, such
testimony would not have incriminated Grimes. This argument
is
without merit,
however,
given
that
the . evidence
indisputably established that Grimes was the person who shot
Rhynes.
Compare Ex parte Sharp, 151 So. 3d 329, 339 (Ala.
2009) (holding,.in appeal from conviction of capital murderrape, that witness's testimony that victim had been raped was
not an opinion on ultimate issue because opinion did not
implicate defendant in the rape).

/

y.

26

*,

On appeal, Grimes argues that the trial court erred by
concluding that defense counsel had opened the door to
evidence of Grimes's prior charges for illegally carrying a
pistol. However, defense counsel twice asked Grimes on direct
examination if he typically carried a gun
which Grimes
denied doing
and, sandwiched between those questions,
defense counsel asked Grimes if he had prior convictions.
Read in context, such questioning provided the trial court
with a reasonable basis for concluding that defense counsel
had opened the door for the State to question Grimes regarding
his prior charges for illegally carrying a pistol. See State
v. Henderson, 382 N.W.2d 275, 279 (Minn. Ct. App. 1986)
(defendant, by "claiming on direct examination that he does
not carry knives," opened the door to questions on crossexamination regarding his prior convictions that involved the
use of knives) .
Thus, we cannot say that the trial court
abused its discretion by allowing the State to elicit such
testimony from Grimes. Hosch, supra.
Moreover, even if defense counsel did not open the door
to such evidence, its admission does not require reversal
because such error, if in fact it was error, was harmless.
Rule 45, Ala. R. App. P.
Tf !

The purpose of the harmless error rule is to avoid
setting aside a conviction or sentence for small
errors or defects that have little,
if any,
likelihood of changing the result of the trial or
sentencing.
Davis [v. State], 718 So. 2d [1148,]
1164 [(Ala. Crim. App. 1995)].
H f II

Whether the improper admission of
evidence of collateral bad acts amounts to
prejudicial error or harmless error must be
decided on the facts of the particular
case."
R.D.H. v. State, 775 So. 2d 248,
254 (Ala. Crim. App. 1997); Hobbs v. State,
669 So. 2d 1030 (Ala. Crim. App. 1995).
The standard for determining whether error
is harmless is whether the evidence in
error was "harmless beyond a reasonable
doubt." Schaut v. State, 551 So. 2d 1135,
1137 (Ala. Crim. App. 1989), citing Chapman
v. California, 386 U.S. 18, 87 S. Ct. 824,
28

17 L. Ed. 2d 705 (1967).
"Hunter v. State, 802 So. 2d 265, 270 (Ala. Crim.
' [T]he harmless error rule excuses the
App. 2 000) .
error of admitting inadmissible evidence only [when]
the evidence was so innocuous or cumulative that it
could not have contributed substantially to the
adverse verdict.'
Ex parte Baker, 906 So. 2d 277,
284 (Ala. 2004)."
Horton v. State, 217 So. 3d 27, 59 (Ala. Crim. App. 2016).
In this case, it was undisputed that Grimes retrieved a
gun from his aunt's house, that he used that gun later that
day to shoot at Rhynes while Rhynes was inside a vehicle, and
that Rhynes was fatally wounded during the shooting. Indeed,
Grimes conceded those facts during his own testimony at trial.
Thus, the jury had ample, undisputed evidence upon which to
convict Grimes, and it is highly unlikely that the jury's
verdict turned on the jurors' knowledge that Grimes had
previously been charged with illegally possessing a pistol.
Put differently, given the undisputed evidence against Grimes,
there is little, if any, likelihood that the result of
Grimes's trial would have been different in the absence of
evidence that Grimes had previously been charged with
illegally possessing a pistol. See Horton, 217 So. 3d at 59
(noting that the purpose of the harmless-error rule is to
avoid setting aside convictions for errors that had little
likelihood of changing the outcome of the trial). Thus, given
the specific facts of this case, we conclude beyond a
reasonable doubt that the admission of evidence of Grimes's
prior charges for illegally carrying a pistol, even if error,
was harmless and therefore does not entitle Grimes to relief.
Rule 45, Ala. R. App. P.
Compare Horton, 217 So. 3d at 59
(holding that the erroneous admission of evidence of
defendant's collateral acts was not harmless where the State's
evidence "was not ironclad, or even overwhelming," and where
the State "produced no witnesses or direct evidence placing
[defendant] at [the scene of] the crime" but, instead,
produced only "circumstantial evidence [that] was minimally
sufficient to warrant sending the case to the jury").
Conclusion

29

V

»*

Based on the foregoing, the judgment of the trial court
is affirmed.
AFFIRMED.
Kellum and Minor, JJ., concur.
J., concur in the result.

30

Windom, P.J., and Cole,

